USSC #20-7653
IN THE
SUPREME COURT OF THE UNITED STATES

JEFFREY TODD DENTON
vs.
JOHN DAVIDS, WARDEN

CERTIFICATE OF GOOD FAITH
Now comes the Petitioner, Jeffrey Todd Denton, who states that he is not Represented
by an Attorney in this matter and is presenting this Petition for Rehearing in Pro Per in Good
Faith and not as a means to delay this Court's ruling denying his Petition for Certiorari. The
Petitioner further certifies that his Petition for a Rehearing is based on (1) Grounds available to
this Court that were raised in his Petition for Certiorari and (2) address intervening substantial
circumstances or substantial ground regarding the Prosecutor in his case that was not
previously presented to this Court, that if proven, there is a reasonable likelihood this Court will
reverse its previous decision denying his Petition for Certiorari. In closing, the Petitioner certify
that his Petition for Rehearing is being presented to this Court in Good Faith.
CERTIFICATION OF SERVICE
The petitioner certifies that he served the within Certificate of Good Faith on the counsel
for the respondent by enclosing a copy thereof in an envelope with postage prepaid by deposing
it in / the , Michigan Department of Corrections Institutional Mailing system on
f]// [f^/l 3/
2021 and further certifies that all parties required to be served have
been %erve'
SUBMITTED

80HTI

D DENTON #288247
DATED:

, 2021

